MARK BRNOVICH
Attorney General

Office of the Attorney General
State of Arizona

Kara Karlson
Assistant Attorney General

April 24, 2020
BY MAIL & ELECTRONIC FILING
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, D.C. 20543
Re: Arizona Libertarian Party v. Hobbs, No. 19-757
Dear Mr. Harris:
I represent the respondent in the above-referenced case. The petition was filed on
December 9, 2019 and the response requested on January 30, 2020. Respondent’s brief in
opposition is presently due May 1, 2020.
I write to request a final 7-day extension of time to file the brief in opposition.
This would change the response brief deadline to May 7, 2020. This very brief extension
is requested due to the unforeseen spike in the volume of work required of the Attorney
General’s Office in representing and advising state agencies working hard to respond to
the COVID-19 process. Unfortunately, when I filed the earlier request, the magnitude of
the crisis was not yet fully apparent. I have contacted opposing counsel and they do not
oppose.
A final 7-day extension is warranted under these extraordinary circumstances.
Thank you for your attention to this matter.
Sincerely,
/s/ Kara M. Karlson
Kara Karlson
Counsel for Secretary of State Katie
Hobbs
cc: counsel of record for petitioner

2005 N Central Ave, Phoenix, Arizona 85004 – Phone 602.542.1680 -- Fax 602.542.3646

